         Office of the Inspector General
Corporation for National and Community Service

                 Semiannual Report to the Congress
                                   for the period
                 October 1, 2000 - March 31, 2001
                                  Fiscal Year 2001
                               Semiannual Report No. 1




As required by the Inspector General Act of 1978, as amended, this report describes
our activities and accomplishments for the first half of the fiscal year. Section 5 of the
Act requires that the Corporation’s Chief Executive Officer submit this report to the
Congress and the Corporation’s Board of Directors within 30 days of its receipt.
                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................................i

IG ACT REPORTING REQUIREMENTS ......................................................................................iii

AUDIT SECTION

    Financial Management .................................................................................................................1
    Grant Management and Oversight.................................................................................................1
    Procurement Management ........................................................................................................... 4
    Management Decisions with which the Office of Inspector General Disagrees and
    The Corporation’s Audit Resolution System ................................................................................7


INVESTIGATIONS SECTION ...................................................................................................... 12

TABLES

    Table I                Inspector General Reports with Questioned Costs ............................................ 20
    Table II               Inspector General Reports with Recommendations
                           That Funds Be Put To Better Use ..................................................................... 21
    Table III              Summary of Audits with Overdue Management Decisions .............................. 22
    Table IV               Reports Described in Prior Semiannual Reports
                           Without Final Action ....................................................................................... 23
    Table V                Status of Recommendations on Corporation Management Issues ..................... 25




                                            Office of the Inspector General
                                   Corporation for National and Community Service
                                     1201 New York Avenue, N.W., Suite 8100
                                               Washington, DC 20525

                                        Telephone (202) 606-5000, extension 390
                                               Facsimile (202) 565-2795
                                                Hotline (800) 452-8210
                        EXECUTIVE SUMMARY
AUDIT SECTION                                         INVESTIGATIONS SECTION

During this semiannual reporting period, OIG          During this semiannual reporting period we
issued thirteen reports, including the audit of       received and processed 33 Hotline calls,
the Corporation’s fiscal year 2000 financial          opened 30 investigative actions, and
statements, the audit of the Delaware State           completed 30 investigative actions.      We
Commission, and nine pre-audit survey reports         referred 11 matters to the Department of
of other state commissions. Summaries of all          Justice for prosecution or civil enforcement
audit reports issued during this period are on        (page 19).
pages 1-5.
                                                      A finding of guilty in one investigation this
Financial Management                                  period resulted in a prison sentence and court-
The audit of the Corporation’s fiscal year 2000       ordered restitution for a former employee of a
financial statements resulted in an unqualified       Corporation grantee (page 12).            Arrest
opinion on the Corporation’s Statement of             warrants were issued following three separate
Financial Position as of September 30, 2000           investigations into forgery and theft (pages 13
and the related Statements of Operations and          through 15). Criminal charges were dropped
Changes in Net Position and Cash Flows for            in another matter after the suspect in a travel
the year then ended. The report noted that            fraud investigation made full restitution (page
material weaknesses in internal control over          13). An arrest warrant was issued in another
financial reporting have been reduced from            matter after the subject pled guilty, then failed
five in FY 1999 to one in FY 2000 (page 1).           to pay the court-ordered restitution (page 14).
Grant Management and Oversight                        Referrals to management involving misuse of
An OIG review to determine whether the                the government travel card by Corporation
Corporation’s current policies and procedures         employees resulted in the dismissal of one
provided reasonable assurance that single             employee and the resignation of another.
audit reports are obtained, reviewed, and             Management action is pending against the
tracked, and that findings, if any, are being         remaining two employees (page 12).
resolved found that the Corporation’s controls        A referral to management involving a
for collection and use of single audit                Corporation employee operating a private
information are inadequate (page 2).                  business for personal gain, during business
The incurred-cost audit of the Delaware               hours and using government resources is
Community Service Commission, a full scope            pending management action (page 15).
audit that followed up on an FY 2000 OIG              A referral to management involving an
pre-audit survey, resulted in questioned costs        appearance of a conflict of interest and
totaling approximately $370 thousand (11              telephone abuse resulted in the removal of a
percent) of the $3.5 million in costs claimed         contractor’s employee, reimbursement for
against CNS’ grants (page 3).                         long distance toll charges, and reimbursement
                                                      for time the employee spent on the telephone
                                                      rather than working (page 14).




                                                  i               FY01 Semiannual Report No. 1
                                                     EXECUTIVE SUMMARY

A referral to management, made during a
previous reporting period, involving OIG
concerns that salaried employees were
receiving AmeriCorps education awards,
resulted in management obtaining a legal
opinion concluding the program was not in
violation of the law (page 16).
A referral to management, made during a
previous reporting period, involving an
employee misusing his government travel card
resulted in the dismissal of the employee
(page 17).

OUTREACH EFFORTS
As a part of our ongoing fraud prevention
efforts, the Deputy Inspector General for
Investigations and Operations provided an
OIG presentation at the most recent
Corporation New Employee Orientation
session.     The presentation included the
authority and responsibilities of the OIG and
when and how employees should contact the
OIG.




                                                ii       FY01 Semiannual Report No. 1
         IG ACT REPORTING REQUIREMENTS
This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.

   Requirement                                                                            Page

 Section 4 (a)(2)    Review of legislation and regulations                              None this
                                                                                         period
 Section 5 (a)(1)    Significant problems, abuses, and deficiencies related to the     Throughout
                     administration of Corporation programs and operations
 Section 5 (a)(2)    Recommendations with respect to significant problems, abuses,     Throughout
                     and deficiencies found in the administration of Corporation
                     programs and operations
 Section 5 (a)(3)    Prior significant recommendations on which corrective action        23 – 28
                     has not been completed
 Section 5 (a)(4)    Matters referred to prosecutive authorities                           19
 Section 5 (a)(5)    Summary of instances where information was refused                 None this
                                                                                         period
 Section 5 (a)(6)    List of audit reports by subject matter showing dollar value of        6
                     questioned costs and recommendations that funds be put to
                     better use
 Section 5 (a)(7)    Summary of each particularly significant report                   Throughout
 Section 5 (a)(8)    Statistical table showing number of reports and dollar value of       20
                     questioned costs
 Section 5 (a)(9)    Statistical table showing number of reports and dollar value of       21
                     recommendations that funds be put to better use
 Section 5 (a)(10)   Summary of each audit issued before this reporting period for         22
                     which no management decision was made by end of reporting
                     period
 Section 5 (a)(11)   Significant revised management decisions                           None this
                                                                                         period
 Section 5 (a)(12)   Significant management decisions with which the Inspector          4, 7 – 11
                     General disagrees




                                              iii                  FY01 Semiannual Report No. 1
                                  AUDIT SECTION
The Office of the Inspector General Audit Section is responsible for reviewing financial, administrative,
and program aspects of Corporation operations. It carries out these responsibilities by conducting the
audit of the Corporation’s annual financial statements, assessing the Corporation’s management
controls, auditing Corporation operations, and auditing individual grants, contracts, and cooperative
agreements funded by the Corporation. All OIG audit reports are referred to Corporation management
for action or information. A list of the reports issued by the Audit Section during this period can be
found on page 6.


                              FINANCIAL MANAGEMENT
Audit of the Corporation for National and Community Service’s Fiscal Year 2000 Financial
Statements (OIG Audit Report Number 01-01)

The Government Corporation Control Act (31 U.S.C. 9101 et seq.) requires the Office of the
Inspector General to annually audit the financial statements of the Corporation. To fulfill this
requirement, OIG contracted with KPMG LLP to audit the Corporation’s fiscal year 2000 financial
statements. The audit was conducted in accordance with government auditing standards. KPMG
issued an unqualified opinion on the Corporation’s Statement of Financial Position as of September
30, 2000 and the related Statements of Operations and Changes in Net Position and Cash Flows for
the year then ended.

As a result of their consideration of internal controls over financial accounting and reporting, the
auditors noted material weaknesses have been reduced from five in FY 1999 to one in FY 2000. The
remaining area of material weakness is grants management. KPMG concluded that a comprehensive
system of internal controls for grant management is not in place. They also reported that significant
differences continue to exist, at the appropriation level, between the Corporation’s records for its fund
balance with Treasury accounts and those maintained by the Treasury, primarily as a result of
transactions occurring in years prior to fiscal year 2000, and that adequate procedures are not in place
for ensuring that the components of unexpended appropriation are accurately accounted for and
reported in the financial statements.

The Report on Compliance with Laws and Regulations disclosed no instances of material non-
compliance with laws and regulations.

These improvements and the Corporation’s new accounting system indicate that the Corporation
continues to make progress toward greater financial accountability.


                   GRANT MANAGEMENT AND OVERSIGHT
The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to state and local governments, state commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for




                                                 1                  FY01 Semiannual Report No. 1
                                                                                        AUDITS
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to Federal cash management requirements.

The Audit Section performs audits of the Corporation’s oversight of grantees and audits of specific
grants to assess whether reported costs were allowable under Federal regulations and whether
grantees complied with the terms and conditions of the awards. Our reports on Corporation grants
contain recommendations for correcting the deficiencies identified in the reports. Typically, the
recommendations are for the grantees to reimburse questioned costs and to establish and implement
policies and procedures to prevent future instances of non-compliance and improve internal controls.
We also make recommendations for increased oversight by the Corporation and improvements in
Corporation grants management operations.

Review of the Corporation’s Use of Single Audit Reports (OIG Report Number 01-14)

Since 1984, the Single Audit Act has required the Corporation to ensure that audits for its grant
recipients are performed, as required under the guidelines of OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations, and that the Corporation receives the reports in a
timely manner. These audit reports provide valuable information on Corporation grantees, including
financial reporting, internal controls, compliance with Federal laws and grant provisions, and
performance of their grants. This information can assist the Corporation in its evaluation of the
Federal funds financial management capabilities of grant applicants, and in its oversight and
monitoring of current grantees. The Act also requires the Corporation to review the reports, track and
follow-up on single audit findings, and in some cases, issue management decisions to ensure that
grantees take appropriate corrective action.

The OIG performed a review to determine whether the Corporation’s current policies and procedures
provided reasonable assurance that single audit reports are obtained, reviewed, and tracked, and that
findings, if any, are being resolved. This review was a follow-up on two previously issued OIG
reports that identified weaknesses related to obtaining and resolving Single Audit Act reports.

We found that the Corporation’s controls for collection and use of single audit information are
inadequate. The Corporation’s current procedures at the headquarters Grants Management Office and
the two Service Centers we visited did not provide reasonable assurance that the Corporation is aware
that the required single audits are being performed, or that single audit information is being obtained,
reviewed, tracked, and resolved in accordance with the requirements of OMB Circular A-133.

On July 6, 2000, near the end of our fieldwork, the Corporation issued Policy Number 102, Audit
Resolution under the Single Audit Act, but issued no new procedures to implement the policy. We
reviewed this policy and concluded that it does not effectively address all requirements of OMB
Circular A-133. We recommended that CNS strengthen its policy and issue additional procedures to
correct the conditions we found.




                                                 2                 FY01 Semiannual Report No. 1
                                                                                        AUDITS
State Commission Audits and Pre-Audit Surveys

Audit of Corporation for National Service Grants Awarded to Delaware Community Service
Commission (OIG Audit Report Number 01-05)

The OIG engaged Leonard G. Birnbaum and Company to perform a program-specific incurred cost
audit of Corporation grants awarded to the Delaware Community Service Commission (DCSC) for
the period January 14, 1994 to March 31, 2000. The scope of the audit extended to costs incurred by
subgrantees through Commission grants funded by the Corporation. The audit resulted in questioned
costs totaling approximately $370 thousand (11 percent) of the $3.5 million in costs claimed against
the grants and disclosed several weaknesses in internal controls including:
   ♦ DCSC did not reconcile the amounts reported to the Corporation on the Financial Status
     Report with the amounts reported on its Federal Cash Transaction Report.
   ♦ DCSC did not record some grants/amendments or the amounts in the accounting system
     properly.
   ♦ DCSC did not properly monitor subrecipients.
The audit report included more than thirty recommendations for corrective actions and improvements
at the Commission and its subgrantees.

State Commissions Pre-Audit Surveys

The Corporation for National and Community Service awards grants and cooperative agreements to
state commissions, nonprofit entities, tribes, and territories to assist in the creation of full and part
time national and community service programs. Currently, in accordance with the requirements of
the National and Community Service Act, the Corporation awards approximately two-thirds of its
AmeriCorps State/National funds to state commissions. The state commissions in turn fund, and are
responsible for the oversight of, subgrantees that execute the programs.

State commissions play an important role in the oversight of AmeriCorps State/National programs
and expenditures, and the Corporation has indicated that it intends to give state commissions even
greater responsibility. However, the Corporation lacks a management information system that
maintains comprehensive information on its grants, including those to state commissions and their
subgrantees. Moreover, although the Corporation began state commission administrative reviews in
1999, the Corporation has not historically carried out a comprehensive, risk-based program of
programmatic oversight and monitoring of state commissions or their subgrantees. It is also unlikely
that AmeriCorps programs are subject to testing as part of statewide audits under the Single Audit Act
due to their size relative to other state programs.

Therefore, OIG initiated a series of pre-audit surveys intended to assess risk and to provide basic
information on the state commissions’ operations and funding. The pre-audit surveys are designed to
provide a preliminary assessment of the commissions’ pre-award and grant selection procedures,
fiscal administration, and monitoring of subgrantees, including AmeriCorps Member activities,
service hour reporting, and other information related to the program accomplishments and the
Corporation’s performance measures. The surveys are also intended to provide information on other



                                                 3                  FY01 Semiannual Report No. 1
                                                                                      AUDITS
audit coverage that may be afforded by the Single Audit Act Requirements. The information will
allow us to determine the timing and extent of our audit work at each state commission.
As listed on page 6, during this semiannual reporting period, OIG issued pre-audit survey reports for
nine additional state commissions:

        Oregon                          Vermont                          Texas
        Mississippi                     Alabama                          Nevada
        Maine                           South Carolina                   California

For each pre-audit survey, OIG has issued a report communicating the results and making
recommendations for improvement at the commissions. Recommendations directed toward
improvements at state commissions occurred most often in the categories of fiscal administration and
monitoring and evaluation of subgrantees. In each report OIG has also recommended that the
Corporation follow up with the commission to determine that appropriate corrective actions are put
into place to address the conditions reported and that the Corporation consider the conditions in its
oversight and monitoring. Our recommendations to the Corporation also included recommendations
that the Corporation revise its guidance to state commissions to specify minimum monitoring
procedures to be performed, as well as minimum documentation requirements.

OIG’s recommendations regarding monitoring have been to establish minimum thresholds and
procedures in order to add a level of structure and consistency to the state commissions’ oversight of
their subgrantees. Doing so would provide the Corporation with improved reliability for grantee
financial information, program performance statistics used to support the Corporation’s Government
Performance and Results Act (GPRA) reports, and the information electronically transmitted via the
Corporation’s Web-based reporting system from subgrantees and entered into the National Service
Trust database to award member education benefits. The Corporation has not accepted these
recommendations, as discussed on page 7 under the topic “Management Decisions with which OIG
Disagrees . . .”


                         PROCUREMENT MANAGEMENT
During fiscal year 1998, OIG audited the Corporation’s procurement operations (OIG Audit Report
98-24, Audit of the Corporation’s Procurement and Contracting Processes and Procedures). That
audit revealed material weaknesses in the Corporation’s award, monitoring, and oversight of its
contracts and cooperative agreements. During this reporting period, the Corporation issued its annual
Federal Managers Financial Integrity Act Report for Fiscal Year 2000 which included the annual
management report indicating that the Corporation has concluded that material weaknesses in its
procurement operations have been corrected. However, OIG’s FY 2000 assessment of these
operations found otherwise. In OIG Audit Report 00-12, Follow-up Audit of the Corporation’s
Procurement Operations, OIG concluded that “the Corporation’s contracting and procurement
operations continue to be a material weakness and should be reported as such under the Federal
Managers’ Financial Integrity Act (FMFIA).” The report indicated that 19 of the deficiencies
identified in OIG’s 1998 audit of the Corporation’s procurement operations continued to exist in FY
2000, the rate of errors discovered by the auditors was significant, and the processes remain
vulnerable to fraud, waste, and abuse. In addition, other OIG audits of individual CNS contracts have



                                                4                 FY01 Semiannual Report No. 1
                                                                                    AUDITS
revealed evidence of poor oversight and mismanagement, and resulted in millions of dollars of
questioned costs. To date, OIG has received no tangible evidence to demonstrate that material
weaknesses in the Corporation’s contracting and procurement operations have been corrected.
Because of the nature of the reported deficiencies, OIG continues to audit the Corporation’s
individual contracts and cooperative agreements. The audits of individual contracts are intended to
assess whether the costs are allowable, adequately supported, and charged in accordance with the
terms of the contract or training and technical assistance agreements, and applicable laws and
regulations. During this reporting period, we issued one such report, described below.

OIG Letter Report Regarding Corporation for National and Community Service Contract
No. 94-007 With Meridian Corporation (OIG Audit Report Number 01-27)

Pursuant to a request received from the Corporation, the OIG retained Cotton & Company, LLP to
perform preliminary survey work of the Meridian Corporation contract and determine the scope of
audit work to be performed. The Meridian contract provided technical support for information
collection and analysis for the Corporation. The OIG concluded that, given the relatively low dollar
amount of claimed costs, the age and accessibility of the records, and an intervening bankruptcy
declaration by Meridian, further audit work was not warranted at this time.




                                               5                 FY01 Semiannual Report No. 1
                                                                                           AUDITS


                         AUDIT REPORTS ISSUED DURING THE PERIOD
                          OCTOBER 1, 2000 THROUGH MARCH 31, 2001

      Report
      Number       Issue Date    Report Title

       01-01        03/29/01     Audit of the Corporation for National and Community Service’s Fiscal
                                 Year 2000 Financial Statements

       01-03        10/16/00     Pre-Audit Survey of the Oregon Community Service Commission
       01-05        01/11/01     Audit of Corporation for National and Community Service Grant
                                 Numbers 94SCSDE008, 94ASCDE008, 95PDSDE008, and
                                 95LCSDE002 Awarded to Delaware Community Service
                                 Commission(1)
       01-14        02/01/01     Review of the Corporation’s Use of Single Audit Reports

       01-15        12/21/00     Pre-Audit Survey of the Mississippi Commission for Volunteer
                                 Service
       01-17        03/22/01     Pre-Audit Survey of the Nevada Commission for National and
                                 Community Service

       01-18        03/08/01     Pre-Audit Survey of the California Commission on Improving Life
                                 through Service
       01-19        01/24/01     Pre-Audit Survey of the Maine Commission for Community Service

       01-20        02/09/01     Pre-Audit Survey of the Alabama State Commission on National and
                                 Community Service
       01-22        02/07/01     Pre-Audit Survey of the South Carolina Commission on National and
                                 Community Service
       01-23        02/20/01     Pre-Audit Survey of the Texas Commission on Volunteerism and
                                 Community Service
       01-26        01/31/01     Pre-Audit Survey of the Vermont Commission on National and
                                 Community Service(2)
       01-27        10/06/00     OIG Letter Report Regarding Corporation for National and
                                 Community Service Contract No. 94-007 with Meridian Corporation

(1)
      As described in Table I, this report included questioned costs of $369,652 in Federal funds of
      which $351,941 is unsupported costs.
(2)
      As described in Table I, this report included questioned costs of $1,481 in Federal funds.




                                                    6                  FY01 Semiannual Report No. 1
                                                                                        AUDITS

      MANAGEMENT DECISIONS WITH WHICH THE OFFICE OF
             INSPECTOR GENERAL DISAGREES AND
        THE CORPORATION’S AUDIT RESOLUTION SYSTEM
Decisions Related to Pre-Audit Surveys

In order to clean up a backlog of decisions related to OIG’s pre-audit surveys of state commissions,
Corporation management issued a March 30, 2001 memorandum declaring that previously proposed
decisions for 24 of the pre-audit surveys were now to be considered final. CNS OIG had reviewed
the proposed decisions (22 of which were issued in March 2001) and responded to the Corporation
that we concurred with many of the responses to the individual recommendations within the reports.

However, in most of the reports, other findings demonstrated inadequate monitoring of subgrantee
financial information, program performance, and the activities and service of AmeriCorps members.
While the Corporation concurred with the findings of inadequate monitoring of such financial
information, the Corporation, virtually uniformly, refused to acknowledge that the guidance issued by
the Corporation to state commissions on monitoring subgrantees was inadequate. The Corporation,
instead, advocates a collegial and unstructured approach to monitoring subgrantees which it
characterizes as a “risk based monitoring strategy.” Thus far, OIG has completed 37 pre-audit
surveys of state commissions. OIG has recommended improvements for subgrantee monitoring for
32 commissions. Only five commissions have been found to have adequate monitoring systems.
Accordingly, irrespective of how the Corporation characterizes its guidance to state commissions on
monitoring subgrantees, the guidance is ineffective.

The concept of focusing on “risk” in assessing the likelihood of inappropriate transactions or
activities is far from new; it has been used by the auditing profession for many years and is formally
codified in the Statements on Auditing Standards promulgated by the American Institute of Certified
Public Accountants (AICPA), and by the Office of Management and Budget (OMB) in the 1997
revision to Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations. The
difference between the AICPA and OMB approach and that of the Corporation is that the former are
structured (e.g. where risk is assessed as “low” such an assessment must be justified by testing of
controls), whereas the latter is totally unstructured and permits the state commissions to monitor their
subgrantees in any manner and to any degree that the individual commission might feel appropriate,
without establishing a rationale supporting the monitoring employed.

The Corporation further justifies its position since it “requires its grantees and subgrantees to use the
OMB A-133 audit as the primary basis for oversight of its awards” on the premise that “these audits
cover the entire operations of the subgrantee including internal controls and compliance with laws
and regulations.” This argument indicates a lack of understanding of the requirements of OMB
Circular A-133, particularly how programs are selected for compliance auditing. Audits of state
commissions and other awards by the Corporation over the last few years have demonstrated that
little, if any, reliance can be placed on A-133 audits, primarily because the Corporation’s awards,
when measured against the total federal awards to the audited entity are not considered “major”
programs for which specific compliance testing is performed. For those reasons, the OIG expressed
its disagreement with the Corporation’s decision not to issue better guidance on monitoring
subgrantee financial information, program performance, and the activities and services of



                                                 7                  FY01 Semiannual Report No. 1
                                                                                       AUDITS
AmeriCorps members. We also requested that the Corporation provide specific information on its
follow-up on the corrective actions that it was proposing for the individual state commissions.

Decisions Related to OIG Audits of CNS Contracts

During this semiannual reporting period, the Corporation notified OIG of final management decisions
for six audit reports on CNS contracts. OIG did not concur with these decisions and has included the
reports as “overdue” in Table III “Summary of Audits with Overdue Management Decisions” (page
22) because none of the six decisions resolved the questioned costs findings. The decisions also
reported actions that missed the point of the recommendation or lacked adequate support. Finally, for
five of six reports for which the contracts have now expired, OIG noted that CNS’ approach to
resolving the compliance and internal control findings and recommendations included plans to review
the contractors’ systems or the issuance of letters to contractors requesting improvements. It is
difficult to perceive CNS’ standing to take or request such actions at this point, or how such future
actions, in any way, work toward resolving the questioned costs which should have been the primary
focus of the decisions.

The six audit reports were:
   ♦ Audit Report 99-09, Audit of Corporation for National Service Contract No. 95-743-
     1009 with Biospherics, Inc.;
   ♦ Audit Report 99-10, Audit of Corporation for National and Community Service Contract
     No. 95-001 with TvT Associates, Inc.;
   ♦ Audit Report 99-18, Audit of Corporation for National and Community Service Contract
     No. 97-743-1001 with GS Tech, Inc.;
   ♦ Audit Report 00-02, Audit of Corporation for National and Community Service Contract
     No. CNCS 94-004 and 97-743-1006 with Aguirre International;
   ♦ Audit Report 00-21, Audit of the Corporation for National and Community Service
     Contract No. 95-743-1005 with Outsourced Administration Systems, Inc.; and
   ♦ Audit Report 00-23, Audit of the Corporation for National and Community Service
     Contracts No. CNCS 94-003 and No. 95-002 with Hi-Tech International, Inc.

OIG also received the Corporation’s management decision on OIG Audit Report 99-15, Audit of the
Corporation’s Oversight and Monitoring of the Health Benefits Program. As the title indicates, OIG
performed this audit to assess management controls and actions related to Contract No. 95-743-1005
with Outsourced Administration Systems, Inc. (listed above) through which the Corporation provides
health care coverage to VISTAs, NCCC members and others. One of the report’s recommendations
was to assess whether it would be cost beneficial for the Corporation to seek legislative changes to
allow the incorporation of this health care coverage into a plan currently offered to federal employees
through the Office of Personnel Management; that is, through the Federal Employees Health Benefits
Program. The Corporation’s decision on this recommendation was non-responsive  while CNS
agreed that such an analysis should be performed, it cited an analysis performed in 1990 as meeting
that requirement. CNS then stated that the recommendation’s implementation would require a
legislative change. The audit report had acknowledged the Corporation’s 1990 analysis; however, it



                                                8                  FY01 Semiannual Report No. 1
                                                                                      AUDITS
recommended that the Corporation perform a cost-benefit analysis and then consider whether actions
to request the legislative changes that would be necessary to effect the changes were warranted.
Since the Corporation has actively been seeking legislative reauthorization since 1999, OIG believes
this would be the time to consider whether money could be saved by providing the health benefits
coverage under the FEHBP plans and whether this is a viable option.

Decisions Related to OIG Audits of CNS Grants

The Corporation issued two final management decisions on OIG grant audit reports that contained
questioned costs. The reports were Audit Report No. 99-04, Audit of Congressional Hunger Center
Cooperative Agreement No. 96ADNDC099 and Audit Report No. 00-05, Audit of Corporation for
National and Community Service Grant Numbers 340A167/01 & 02; 339A041/16 & 17; 336A015/17
& 18 with the Health Association of Niagra County, Inc. The following table summarizes these
decisions in terms of allowed and disallowed costs.


       Management Decisions on OIG Reports With Questioned Costs
           During the period October 1, 2000 – March 31, 2001

                                                    Federal Questioned Costs*

                                        Allowed                Disallowed               Total
                                                           (Dollars in thousands)



       Overall                      $144        56%         $111          44%           $255


    Unsupported                     $130        58%          $95          42%           $225


 *The amount “allowed” represents costs claimed by a grantee and questioned in an audit that
 management subsequently determined were allowable. The amount “disallowed” represents
 questioned costs sustained by management.

OIG disagrees with the Corporation’s decisions on these reports for the following reasons:

   ♦ On March 15, 2001, OIG received the Corporation’s final management decision for OIG
     Audit Report 99-04, Audit of the Congressional Hunger Center. The decision allowed
     more than $95 thousand of costs questioned because they were unsupported at the time of
     the audit. OIG’s April 25, 2000 memorandum to the then-CFO disagreed with the
     Corporation’s proposal to allow these costs based on documentation described as being
     found in a warehouse, long after the audit report had been issued. OIG was then, and
     remains, skeptical of documentation that emerges under such circumstances, particularly



                                                9                  FY01 Semiannual Report No. 1
                                                                                    AUDITS
       for subgrantees of a grantee where controls have been determined to be less than
       adequate. Further, CHC was given advance notice of the audit, the auditors were on-site
       for an extended period of time and shared their finding related to these costs with the
       auditee at an exit conference. The auditee had a 30-day period to respond to the draft
       audit report. At no time were the above-noted documents produced to OIG or its
       auditors, nor was there ever a mention of their existence or possible existence. Given
       these circumstances, OIG has requested that the Corporation produce for OIG review, the
       evidence upon which the decision to allow the costs is based.

   ♦ OIG disagreed with the management decision on OIG Audit Report 00-05, Audit of
     Corporation for National and Community Service Grants with the Health Association of
     Niagara County, Inc., to the extent that it allowed costs that were questioned because
     they represented personnel and related-benefit costs of a staff member whose time was
     shared between a Foster Grandparents and Senior Companion program without an after
     the fact determination of the actual activity of the employee as required by OMB Circular
     A-122 and Special Condition No. 10 of the Notice of Grant Award. The audit revealed
     that the grantee failed to adequately support amounts charged under the grant, as required
     by the grant’s own terms.

Reported Final Action Issues

During this reporting period, the Corporation reported final action on findings and recommendations
for 12 OIG reports. Based on receiving an unqualified opinion on its financial statements, CNS
management opted to report final action and close a number of reports that recommended financial
management improvements including OIG’s management letter from the audit of the Corporation’s
fiscal year 1999 financial statements (OIG Audit Report 99-24) and OIG’s report on the
Corporation’s Action Plan (OIG Audit Report 00-13). OIG disagrees because these two reports
included a number of recommendations which have not been appropriately implemented including:

   ♦ implementing an effective grants management system;

   ♦ establishing an automated method of reconciliation between the Department of Health
     and Human Services’ PMS system which is used to fund CNS grants and the
     Corporation’s general ledger system;

   ♦ developing grant close out policies and procedures, a consistent method for identifying
     expired grants and closing them in a timely manner, and enforcing procures to complete
     and document a funding reconciliation of expiring grants;

   ♦ implementing a periodic, sample-based review of the information in the Trust Fund
     database;

   ♦ establishing more comprehensive controls over budget execution reports (SF-133
     submissions);




                                              10                 FY01 Semiannual Report No. 1
                                                                                     AUDITS
   ♦ implementing an independent validation (a follow-up) process to ensure that corrective
     actions are effectively implemented and establishing criteria to measure the results and
     completion of tasks; and

   ♦ documenting significant management decisions.

Recent OIG reports, including OIG Report Number 01-01, The Financial Statement Audits Report,
have indicated that these recommendations have yet to be fully and effectively implemented.

The Corporation’s Audit Resolution System Needs Improvement

The Corporation’s audit resolution system is not functioning effectively. An effective system ensures
the prompt resolution of findings from audits and other reviews. Table IV (page 23) of this report
indicates that recommendations included in 21 audit reports have remained unresolved for over a
year. Table III (Page 22) reports that approximately $10 million of question costs have been
unresolved for more than a year. OIG considered the results of the Corporation’s financial statements
audit when compiling Table V (page 25) and closed 229 recommendations related to the
Corporation’s financial management; however, OIG review of the audit reports listed and the
Corporation’s responses and decisions thereon reveals that 101 recommendations remain uncorrected.

An effective audit resolution system is one in which management is responsive to the findings and
recommendations resulting from audits and other reviews and one in which management takes
appropriate follow up actions. The Corporation has failed to take prompt and appropriate actions to
correct the conditions reported in OIG’s audit reports as illustrated by the overdue decisions and
corrective actions reported in Tables III, IV, and V, and by management’s decisions during this
period on OIG’s contract and grant audits. Moreover, as indicated by management’s responses to the
pre-audit surveys, management is reluctant, when it comes to its grantees, to implement effective
corrective actions that address the root causes of the problems.




                                               11                FY01 Semiannual Report No. 1
                     INVESTIGATIONS SECTION
We began this reporting period with 33 previously opened investigative actions. During this
reporting period we opened 30 new investigative actions and closed 30. We had 33 investigative
actions pending at the end of the reporting period.

                HIGHLIGHTS OF INVESTIGATIONS CLOSED
                   DURING THIS REPORTING PERIOD
Embezzlement Nets Prison Term and Court-Ordered Restitution for Director of Finance

We completed an investigation we began after it was reported to us that a Corporation grantee’s
Director of Finance allegedly stole approximately $16,000 in cash and property. The subject fled to
Australia and was arrested in Honolulu, HI, as she was returning to the United States. She was
returned to Washington, DC, and was found guilty in Federal District Court. The subject was
sentenced to serve twenty-one months in a Federal penitentiary, followed by three years probation
that includes substance abuse training and testing, and to pay restitution of $21,461 and court
assessments of $200. (99-041)

Corporation Employee Uses Government Travel Card for Over $9,800 in Personal Charges

We completed an investigation we opened during a proactive effort where we determined that a
Corporation employee might have used her Government issued travel card for personal use. We
compared charges to the employee’s government travel card account to the employee’s official travel
documents and found evidence that the employee used her official government travel card for over
$9,800 of personal charges. The employee admitted to using her card for personal use. Corporation
management was provided a report for their use in determining what action to take against the
employee. The action taken by management will be reported after receipt. (01-024)

Corporation Employees Misuse Government Issued Travel Card

We completed three separate investigations we opened after a member of Corporation management
reported that three Corporation employees might have used their government issued travel card for
personal use. We compared charges to the three employee’s government travel card accounts to their
official travel documents and found evidence that each of the employees used their official
government travel card for personal use. Our review disclosed that

   ♦ one employee’s account was $4,588 in arrears and $3,682 was charged to the account for
     what were apparently personal reasons (this employee resigned);

   ♦ one employee’s account was $150 in arrears and $7,724 was charged to the account for
     what were apparently personal reasons (administrative action is pending); and

   ♦ one employee’s account was $518 in arrears and $605 was charged to the account for
     what were apparently personal reasons (this employee was terminated while in a
     probationary status).




                                              12                FY01 Semiannual Report No. 1
                                                                    INVESTIGATIONS
Corporation management was provided the necessary reports and documents for their use in deciding
what action to take against the one remaining employee. Management has taken action against
another employee for similar misconduct documented in a separate investigation (page 17). (01-016,
01-019, 01-020)

Forgery of AmeriCorps Time Logs Alleged – Arrest Warrant Issued

We completed an investigation we opened when we found evidence in audit working papers, prepared
by an audit firm conducting a pre-audit survey for the OIG, that two AmeriCorps members serving in
a state commission-funded program forged signatures on the AmeriCorps time logs. Our investigation
determined that only one of the former AmeriCorps members forged signatures. The State Attorney’s
Office accepted this matter for prosecution, a warrant for the subject’s arrest was issued, and if the
subject comes to the attention of law enforcement (the state does not pursue misdemeanor warrants),
the subject will be apprehended and prosecuted. When the subject is apprehended and prosecuted we
will prepare a supplemental report. (00-030)

Suspect in Travel Fraud Allegations Makes Restitution – Prosecutor Declines Further Action

We completed an investigation we opened after learning that a grantee’s former program director
stole Federal funds by obtaining travel advances for meals that were later provided at no charge. Our
investigation determined that the former program director obtained travel advances totaling $686 for
meals when the Corporation paid for the meals. We also found the former program director received
a travel advance, airline ticket, and a separate hotel room advance, totaling $1,563, for a conference
he did not attend. He kept the funds and ticket. The total loss was $2,249, none of which was
charged against the Corporation grant after we became involved. The U.S. Attorney’s office declined
to accept this case for prosecution based on the low dollar value. The local prosecutor accepted the
case for prosecution and the former director made full restitution. The former director was indicted by
a local grand jury and a warrant issued for his arrest. When an attempt was made to serve the
warrant, it was learned that the former director had left the state. Since the funds were repaid and the
arrest warrant was for an offense that is not extraditable, the local prosecutor anticipates no further
action. (00-008)

Charges Withdrawn in Alleged Forgery

We completed an investigation we opened after learning that an AmeriCorps member had forged the
signature of a certifying official on the member’s End of Term of Service Form. Our investigation
disclosed evidence that the AmeriCorps member physically cut the signature of the certifying official
from a letter sent by the official to the member and then affixed the signature on the End of Term of
Service Form. The member then apparently faxed the form to the Corporation claiming she had
completed 2000 service hours in an effort to receive an education award. No award was paid. The
U.S. Attorney declined to accept this matter for prosecution. The matter was referred to and accepted
by the local prosecutor for prosecution. The charge against the former member was a misdemeanor
forgery offense and the former member contested the charge. The District Attorney subsequently
determined it was not cost effective to pay witness travel expenses for a misdemeanor offense when
the crime itself resulted in no loss of funds, and charges were withdrawn. (00-020)




                                                13                 FY01 Semiannual Report No. 1
                                                                   INVESTIGATIONS
Appearance of Conflict of Interest & Telephone Abuse Results in Removal & Reimbursement

We completed an investigation we opened to review the relationship between a senior Corporation
employee and the Corporation employee’s brother, an employee of a government contractor
providing services to the Corporation.

Our investigation disclosed an appearance that the government employee was not acting impartially
while executing his duties. The employee of the government contractor was interviewed and denied
receiving any special favors or treatment from the government employee, but during this interview
admitted to using Corporation resources to place numerous long distance telephone calls for personal
use. We referred the information regarding the theft of services (telephone abuse) to the
Corporation’s Chief Operating Officer and recommended that the contractor’s employee be removed
from the site and steps be taken to obtain reimbursement for the long distance telephone calls and for
the time devoted to placing the calls.

The contractor’s employee was removed from the contract and from the Corporation, and the
contractor reimbursed the Corporation for the long distance telephone calls placed by the contractor’s
employee and for the time the employee was on the telephone. The reimbursement of $749.85
($145.17 in long distance charges and $604.68 for the time spent on the telephone rather than
working) was in the form of an “offset” against an invoice payment. (99-035)

AmeriCorps Member Forges Supervisor’s Signature to Time Sheet – Arrest Warrant Issued

We completed an investigation we opened when an executive director of a state commission reported
possible fraudulent activity within a commission-funded AmeriCorps program.

Our investigation disclosed that an AmeriCorps member (ACM) forged her site coordinator’s
signature to her (the ACM’s) time log, although she did, in fact, serve some of the hours reported.
Local program management conducted an internal inquiry and confirmed the forgery, resulting in the
immediate termination of the ACM from the program. The United States Attorney’s Office declined
prosecution. The State Attorney’s Office accepted this matter for prosecution, a warrant for the
subject’s arrest was issued, and if the subject comes to the attention of law enforcement (the state
does not pursue misdemeanor warrants), the subject will be apprehended and prosecuted. When the
subject is apprehended and prosecuted we will prepare a supplemental report. (00-037)

AmeriCorps Member Fraudulently Obtains Childcare Benefit and Pleads Guilty – Arrest Warrant
Issued Upon Failure to Appear and Failure to Pay Restitution

We completed an investigation we opened upon receiving information that an AmeriCorps member
was receiving state aid for childcare that was also being funded by AmeriCorps Care, a childcare
subsidy available to eligible full-time AmeriCorps members while they are participating in national
service. Our investigation disclosed that the AmeriCorps member, who was terminated from the
AmeriCorps program, submitted documentation through AmeriCorps channels indicating that the
grandfather of her children was providing childcare for two of her children. Payments were made to
the grandfather for childcare that was reportedly provided. We found evidence that one of the
children was in the legal custody of a grandmother. The grandmother has a different last name than



                                               14                 FY01 Semiannual Report No. 1
                                                                    INVESTIGATIONS
the aforementioned grandfather, although they reportedly resided at the same address, an address that
is different from the address where the grandfather received payment for the childcare he purportedly
provided. The subject also received money from the state to provide childcare for the two children
and the care was actually provided by a daycare center.

The District Attorney’s office accepted this matter for prosecution after the U.S. Attorney declined
due to the low dollar value. The subject was interviewed and admitted having her grandfather cash the
AmeriCorps Care checks and then taking all the money from him. Criminal complaints were filed
against the subject and the grandfather, and arrest warrants were obtained for both parties. The subject
voluntarily surrendered, was arrested, pled guilty, and agreed to pay full restitution. The grandfather,
who fled to Florida, was not pursued inasmuch as this is not an extraditable offense.

The subject was sentenced to a conditional discharge and the case was adjourned so she could make
restitution. An initial payment was made to the Corporation and further restitution was to be made to
the Corporation via the county probation department. After the initial payment, no additional
payments were made, and the subject failed to appear at her next scheduled court appearance. The
court has issued a warrant for her arrest. When the subject is apprehended, a supplemental report will
be prepared. (99-025)

AmeriCorps Member Forges Timesheet & Steals Credit Card – Arrest Warrant Issued

We completed an investigation we opened after a program officer for a state commission notified us
of a possible forgery of a former AmeriCorps member’s timesheet. Our investigation determined that
a former AmeriCorps member forged her on-site coordinator’s signature to the member’s timesheets
for a two-month period, claiming approximately 91 service hours the member did not serve or that
could not be verified. Further, it appeared the subject stole her on-site coordinator’s personal credit
card and used this card for various purchases. The subject’s status as an AmeriCorps member was
terminated for attendance problems prior to the discovery of the aforementioned offenses. The
subject did not receive and is not eligible to receive an education award. The State Attorney’s Office
accepted this matter for prosecution, a warrant for the subject’s arrest was issued, and if the subject
comes to the attention of law enforcement (the state does not pursue misdemeanor warrants), the
subject will be apprehended and prosecuted. When the subject is apprehended and prosecuted, we
will prepare a supplemental report. (00-044)

Corporation Employee Operates Private Business Using Corporation Resources

We completed an investigation we opened after a Corporation employee, who was the target of a
separate OIG investigation, reported that one of his subordinates, also a Corporation employee, was
operating a private business from within the Corporation, during Corporation business hours. We
found evidence that the employee received personal packages through the Corporation’s mailroom on
a regular basis for her private business. We also found evidence that the employee devoted several
hours each day to using a Corporation telephone and a Corporation computer, both in support of her
personal business. The employee’s actions appear to violate the Federal Standards of Conduct and
Federal regulations. Corporation management was provided a report for their use in determining
what action to take against the employee. The action taken by management will be reported after
receipt. (01-022)



                                                15                 FY01 Semiannual Report No. 1
                                                                        INVESTIGATIONS
Joint Investigation Uncovers Former VISTA Misconduct – Prosecution Declined

We completed an investigation we began upon learning that the FBI and the Department of Education
OIG were investigating allegations of misconduct by former VISTA participants. We joined a joint
investigative task force, lead by the FBI, investigating allegations of false, fraudulent or otherwise
inappropriate claims for funding submitted by community-based organizations within one state. The
U.S. Attorney’s Office declined to accept this matter for prosecution based on the low dollar amount.
The local District Attorney’s Office declined to prosecute because under state law the statute of
limitations for theft had expired. No Corporation funds were lost. (99-010)

                  FOLLOW-UP ON INVESTIGATIONS CLOSED
                  DURING A PREVIOUS REPORTING PERIOD
Paid Substitute Teachers Earn AmeriCorps Education Award – Management Responds that
Grantee is in Compliance with Statutory Provisions

During the reporting period previous to the period addressed by this report, we completed an inquiry
we opened after a confidential source provided information that AmeriCorps members were earning
service hours while engaged in an activity (assistant teaching) for which they were being otherwise
compensated. The assistant teachers who served as education award only AmeriCorps members were
recruited from the Teacher Assistant Program, a program mandated and funded by the state’s
legislature. The assistant teachers, both those enrolled in the AmeriCorps program and those that are
not enrolled in the program, receive a salary from the state. During the 1999-2000 school year, this
salary was $9,115 for the year.

It appears that the AmeriCorps members enrolled in the AmeriCorps program qualify for an
education award from the National Service Trust with little more than 108 hours of uncompensated
service (3 hours per week, 36 weeks per school year, equals 108 hours). While there are other
objectives enumerated in the grant, none of the other objectives require an effort by the AmeriCorps
members that is quantified by hours of service performed.

We referred this matter to Corporation management, expressing OIG concerns regarding non-
duplication, non-displacement1, and the appearance created by salaried employees receiving
AmeriCorps education awards under such circumstances. We recommended that management
request a written legal opinion from their General Counsel regarding the service of the AmeriCorps
members in the Teacher Assistant Program and Section 177 of the National Community Service Act
(NCSA), 42 U.S.C. Section 12637, concerning non-duplication and non-displacement. We further
recommended that if management determined the AmeriCorps members’ service violates the
provisions, then management should act immediately to bring the grantee in compliance with the
provisions of the grant. We concluded by recommending that if management determined the

1
 The statutory prohibition on non-duplication means that Corporation funds may not be used for a program
participant to provide a service, duty, or activity that is already being performed as part of the duties of an
employed person in that locality. Likewise, the prohibition on non-displacement means that an employer may
not displace a current employee or position, even partially by reduction in wages or benefits, by use of a
participant in a Corporation funded program.



                                                   16                   FY01 Semiannual Report No. 1
                                                                     INVESTIGATIONS
AmeriCorps members’ service was not in violation of the non-duplication and non-displacement
provisions, they should file their legal opinion supporting such a determination with the government’s
official copy of the grant document.

Management responded to our recommendations with a written legal opinion from the General
Counsel that concludes that the operation of the aforementioned program was not in violation of the
rules regarding duplication and displacement. This opinion stated that the general rules against
duplication and displacement were not read in isolation, but rather in light of section 122(a)(8) of the
NCSA, 42 U.S.C. Section 12572(a)(8). This section of the NCSA specifically designates a
professional corps program that recruits and places qualified participants in positions as teachers as a
type of national service program eligible for funding.

After reviewing management’s response, we requested they revisit their opinion in light of the
legislative history relative to the cited provision of the NCSA. Senate Report language concerning
the provision states:

        It is the Committee’s intent that such professional corps be eligible for funding only
        if they are placing individuals into such a professions for the first time in a
        community that cannot attract enough of these professionals. It is not the intent of
        the Committee that professionals already serving in these professions could apply for
        funding and post-service educational awards for their continued service in the same
        position in which they have been serving.

S. Rep. No. 70, 103rd Cong., 1st Sess. 20 (1993)

We informed management that we felt the program appears to fail as a professional corps program for
three reasons: It solicits existing Assistant Teachers and does not create a corps of first-time teachers.
It appears to be established in communities with adequate numbers of teachers. And finally, the
Assistant Teachers are already serving as teachers and could apply for post-service educational
service awards for their continued service in the same position in which they have been serving.

Management responded to our request that they revisit their first response by providing a second
memorandum from the General Counsel. The General Counsel concludes that “while the definition
in subtitle C of a ‘professional corps’ program is helpful in understanding the scope of the rules on
duplication and displacement applicable to programs funded under title I of the NCSA, it does not
preclude [the grantee] from receiving a AmeriCorps Education Award grant under the more flexible
authority of subtitle H of the NCSA. For this reason, I see no need to amend my opinion of
November 13, 2000.” Management stated that General Counsel and OIG memoranda on this matter
would be made a part of the official grants file. (99-040)

Management Terminates Employee Following Travel Card Abuse

During the reporting period previous to the period addressed by this report, we completed an inquiry
that we opened after we received information that a Corporation employee had over $8,000 in
delinquent travel charges on his Bank of America travel charge card account. The employee’s Bank
of America charge card statements reflected over $26,000 in charges and comparison of the



                                                 17                  FY01 Semiannual Report No. 1
                                                                 INVESTIGATIONS
employee’s requests for travel reimbursement with the charge card statements indicated that only
$4,000 of the $26,000 in charges was for official travel. The employee claimed his roommate used his
travel card without his (the employee’s) permission. We interviewed and obtained written statements
from the employee. The employee admitted using his official travel card for personal purchases, but
refused to divulge the name of his roommate. Management dismissed the employee. (00-043)




                                              18                 FY01 Semiannual Report No. 1
                                                                                            INVESTIGATIONS


                           STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed

Number of Cases Open at Beginning of Reporting Period..............................                                  33


Number of New Cases Opened During This Reporting Period.......................                                       30


Number of Cases Closed During This Period With
Significant Findings.........................................................................................        14


Number of Cases Closed During This Period With
No Significant Findings...................................................................................           16


Total Cases Closed This Reporting Period......................................................                       30


Number of Cases Open at End of Reporting Period........................................                              33


Referred

Number of Cases Referred for Prosecution During
This Reporting Period......................................................................................          11


Number of Cases Accepted for Prosecution During
This Reporting Period......................................................................................           7


Number of Cases Declined for Prosecution During
This Reporting Period......................................................................................           3

Number of Cases Pending Prosecutive Review...............................................                             2




                                                                19                         FY01 Semiannual Report No. 1
                               TABLE I
           INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                                     Federal Costs
                                                    Number   Questioned        Unsupported
                                                                    (Dollars in thousands)

1. For which no management decision had               10     $ 10,408                 $ 2,602
   been made by the commencement of the
   reporting period


2. Which were issued during the reporting              2           371                        352
   period
                                                      _      ________                ________


3. Subtotals (1 plus 2)                               12         10,779                      2,954


4. For which a management decision was                 2
   made during the reporting period:


    (i)     dollar value of disallowed costs                       111                         95


    (ii)    dollar value of costs not                              144                        130
            disallowed

5. For which no management decision had
   been made by the end of the reporting
   period (3 minus 4)
                                                      10     $ 10,524                   $ 2,729

6. Reports with questioned costs for which            7      $   9,614
   no management decision was made within
   six months of issuance




                                               20            FY01 Semiannual Report No. 1
                                TABLE II
           INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
                    THAT FUNDS BE PUT TO BETTER USE


                                                           Number          Dollar Value
                                                                         (Dollars in thousands)


A. For which no management decision had been made             0                   $0
   by the commencement of the reporting period


B. Which were issued during the reporting period              0                   $0


C. For which a management decision was made during
   the reporting period


    (i)    dollar value of recommendations that were
           agreed to by management


           based on proposed management action                0                   $0


           based on proposed legislative action               0                   $0



    (ii)   dollar value of recommendations that were not      0                   $0
           agreed by management



D. For which no management decision has been made             0                   $0
   by the end of the reporting period


    Reports for which no management decision was              0                   $0
    made within six months of issuance




                                             21            FY01 Semiannual Report No. 1
                                TABLE III
          SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS



                                                          Federal
Report                                                    Dollars     Management      Status as of
Number                       Title                       Questioned   Decision Due   March 31, 2001
99-09    Audit of Corporation for National Service       $ 739,458     11/02/99      Management has
         Contract No. 95-743-1009 with Biospherics,                                  not resolved the
         Inc.                                                                        questioned costs.

99-10    Audit of Corporation for National and             296,665     01/29/00      Management has
         Community Service Contract No. 95-001 with                                  not resolved the
         TvT Associates, Inc.                                                        questioned costs.

99-18    Audit of Corporation for National and              50,850     02/13/00      Management has
         Community Service Contract No. 97-743-                                      not resolved the
                                                                                     questioned costs.
         1001 with GS Tech, Inc.

00-02    Audit of Corporation for National and               7,279     05/29/00      Management has
         Community Service Contract No. CNCS 94-                                     not resolved the
         004 and 97-743-1006 with Aguirre                                            questioned costs.
         International

00-04    Evaluation of the Corporation’s Oversight and      __         06/11/00         Overdue
         Monitoring of the Cooperative Agreement
         with the National Association of Child Care
         Resources Referral Associates

00-12    Follow-up Audit of the Corporation’s               __         03/26/01         Overdue
         Procurement Operations

00-21    Audit of the Corporation for National and       7,379,847     07/05/00      Management has
         Community Service Contract No. 95-743-                                      not resolved the
         1005 with Outsourced Administration                                         questioned costs.
         Systems, Inc.
00-22    Audit of Corporation for National and           1,102,982     03/20/01         Overdue
         Community Service Contract No. CNCS 94-
         002 with Encore Management Corporation

00-23    Audit of the Corporation for National and          36,852     12/12/00      Management has
         Community Service Contracts No. CNCS 94-                                    not resolved the
         003 and No. 95-002 with Hi-Tech                                             questioned costs.
         International, Inc.

                            Total                        $9,613,933



                                           22               FY01 Semiannual Report No. 1
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION


                                                                                       Final
Report                                                                     Date        Action
Number                               Title                                Issued        Due
98-02    Review of Corporation for National and Community Service        04/27/98     04/27/99
         Pre-award Financial Assessment of Grant Applicants

98-23    Auditability Assessment of the Corporation for National         07/08/98     07/08/99
         Service at September 30, 1997

99-01    Audit of Corporation for National and Community Service         10/09/98     10/09/99
         Statement of Financial Position (September 30, 1997)

99-02    Recommended Improvements to the Corporation’s Internal          11/17/98     11/17/99
         Controls (Management Letter)

99-04    Audit of Congressional Hunger Center Cooperative                01/22/99     01/22/00
         Agreement No. 96ADNDC099

99-05    Evaluation of the Corporation’s Monitoring and Oversight of     02/26/99     02/26/00
         Cooperative Agreement Awarded to Congressional Hunger
         Center

99-09    Audit of Corporation for National Service Contract No. 95-      05/06/99     05/06/00
         743-1009 with Biospherics, Inc.

99-10    Audit of Corporation for National and Community Service         08/02/99     08/02/00
         Contract No. 95-101 with TvT Associates, Inc.

99-12    Audit of the Corporation for National and Community             04/09/99     04/09/00
         Service’s Fiscal Year 1998 Financial Statements

99-15    Audit of Corporation’s Oversight and Monitoring of the          09/14/99     09/14/00
         Health Benefits Program

99-18    Audit of Corporation for National and Community Service         08/27/99     08/27/00
         Contract No. 97-743-1001 GS Tech, Inc.
                                                                                     (continued)




                                             23               FY01 Semiannual Report No. 1
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION


                                                                                        Final
Report                                                                        Date      Action
Number                                 Title                                 Issued      Due
00-01    Audit of the Corporation for National and Community Service’s      03/31/00   03/31/01
         Fiscal Year 1999 Financial Statements

00-02    Audit of Corporation for National and Community Service            11/30/99   11/30/00
         Contract No. CNCS 94-004 and 97-743-1006 with Aguirre
         International

00-04    Evaluation of the Corporation’s Oversight and Monitoring of the    12/14/99   12/14/00
         Cooperative Agreement with the National Association of Child
         Care Resources Referral Associations

00-09    Pre-Audit Survey of the Tennessee Commission on National and       02/09/00   02/09/01
         Community Service

00-14    Pre-Audit Survey of the Pennsylvania Commission on National        03/28/00   03/28/01
         and Community Service

00-16    Pre-Audit Survey of the West Virginia Commission on National       03/27/00   03/27/01
         and Community Service

00-17    Pre-Audit Survey of the Missouri Community Service                 03/28/00   03/28/01
         Commission

00-18    Pre-Audit Survey of the Virginia Commission on National and        03/24/00   03/24/01
         Community Service

00-19    Pre-Audit Survey of the New Hampshire Commission on National       02/09/00   02/09/01
         and Community Service

00-21    Audit of Corporation for National and Community Service            01/06/00   01/06/01
         Contract No. 95-743-1005 with Outsourced Administrative
         Systems, Inc.




                                           24                 FY01 Semiannual Report No. 1
                                   TABLE V
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                            Number of       Corrective
                                         Recommendations     Action           Open
                                            in Reports      Completed    Recommendations
Financial Management

Audit of the Corporation for National          23                0             23
and Community Service’s Fiscal Year
2000 Financial Statements (OIG Audit
Report 01-01, issued 03/29/01)

Recommended Improvements to the                34               24             10
Corporation’s Internal Controls –
Fiscal Year 1998 Management Letter
(OIG Audit Report 99-24, issued
06/30/99)

Audit of the Corporation for National          22                9             13
and Community Service Fiscal Year
1998 Financial Statements (OIG
Audit Report 99-12, issued 04/09/99)

Recommended Improvements to the                12               10              2
Corporation’s Internal Controls –
Management Letter (OIG Audit
Report 99-02, issued 11/17/98)

Audit of the Corporation for National           2                0              2
and Community Service FY 97
Statement of Financial Position (OIG
Audit Report 99-01, issued 10/09/98)

Auditability Assessment of the                141              128             13
Corporation for National Service at
September 30, 1997 (OIG Audit
Report 98-23, issued 07/08/98)

Recommended Improvements to the                36               10              26
Corporation’s Internal Controls Fiscal
Year 1999 – Management Letter (OIG
Audit Report 00-38, issued 06/27/00)                                       (continued)




                                         25                FY01 Semiannual Report No. 1
                                   TABLE V
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                           Number of       Corrective
                                        Recommendations     Action           Open
                                           in Reports      Completed    Recommendations
Review of the Corporation for                 53                33             20
National and Community Service
Action Plan (OIG Audit Report 00-13,
issued 12/01/99)

Audit of the Corporation for                  30               15              15
National and Community Service’s
Fiscal Year 1999 Financial
Statements (OIG Audit Report
00-01, issued 03/31/00)

Grant Oversight and Monitoring

Pre-Audit Surveys                              4                0               4

Audit of Corporation for National and          2                0               2
Community Service Grant Numbers
94SCSDE008, 94ASCDE008,
95PDSDE008, and 95LCSDE002
Awarded to Delaware Community
Service Commission (OIG Audit
Report 01-05, issued 01/11/01)

Review of the Corporation’s Use of            10                0              10
Single Audit Reports (OIG Audit
Report 01-14, issued 02/01/01)

Assessment of AmeriCorps Service              18               16               2
Hour Reporting (OIG Audit Report
98-19, issued 08/27/98)

Review of the Corporation for                  3                1              2
National and Community Service
Pre-Award Financial Assessment of
Grant Applicants (OIG Audit Report
98-02, issued 04/27/98)                                                    (continued)




                                        26                FY01 Semiannual Report No. 1
                                   TABLE V
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                                 Number of        Corrective
                                             Recommendations in    Action           Open
                                                  Reports         Completed    Recommendations

Audit of Corporation for National and                2                0               2
Community Service Grant Numbers
340A167/01 & 02; 339A041/16 & 17;
336A015/17 & 18 with the Health
Association of Niagra County, Inc. (OIG
Audit Report 00-05, issued 12/06/99)

Evaluation of the Corporation’s Oversight           18                0              18
and Monitoring of the Cooperative
Agreement with the National Association
of Child Care Resources Referral
Associations (OIG Audit Report 00-04,
issued 12/14/99)

Procurement and Contract Management

Audit of Corporation’s Procurement and              26               16              10
Contracting Processes and Procedures
(OIG Audit Report 98-24, issued
09/30/98)

Follow-up Audit of the Corporation’s                25                0              25
Procurement Operations (OIG Audit
Report 00-12, issued 09/25/00)

Audit of Corporation for National and                3                0               3
Community Service Contract No. 95-743-
109 with Biospherics, Inc. (OIG Audit
Report 99-09, issued 5/6/99)

Audit of Corporation for National and                3                0               3
Community Service Contract No. CNCS
94-003 and No. 95-002 with Hi-Tech
International, Inc. (OIG Audit Report 00-
23, issued 6/15/00)

Audit of Corporation for National and                3                0               3
Community Service Contract No. 97-743-
1001 with GS Tech, Inc. (OIG Audit
Report 99-18, issued 08/27/99)                                                   (continued)




                                            27               FY01 Semiannual Report No. 1
                                   TABLE V
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                                  Number of      Corrective
                                               Recommendations    Action           Open
                                                  in Reports     Completed    Recommendations

Audit of Corporation’s Oversight and                 11              3              8
Monitoring of the Health Benefits Program
(OIG Audit Report 99-15, issued 09/14/99)

Audit of Corporation for National and                19              3              16
Community Service Contract No. 95-743-
1005 with Outsourced Administrative
Systems, Inc. (OIG Report 00-21, issued
01/06/00)

Audit of Corporation for National and                 2              1              1
Community Service Contract No. 95-001
with TvT Associates, Inc. (OIG Audit
Report 99-10, issued 08/02/99)

Audit of Corporation for National and                6               0              6
Community Service Contract No. CNCS-
94-002     with  Encore   Management
Corporation (OIG Audit Report 00-22,
issued 09/22/00)

Audit of Corporation for National and                2               1              1
Community Service Contract No. CNCS-
94-004 and 97-743-1006 with Aguirre
International (OIG Audit Report 00-02,
issued 11/30/99)

Audit Resolution

OIG FY 97 Semiannual Report 1 (OIG                    5               1              4
Audit Report SAR 97-1, issued 04/30/97)


                   Total
                                                    515             271            244




                                          28                 FY01 Semiannual Report No. 1
